      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                         Washington, D.C. 20201




September 22, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of New Jersey’s Compliance With the Reserve or Rainy Day Fund
               Requirement for the Increased Federal Medical Assistance Percentage Under the
               American Recovery and Reinvestment Act (A-02-09-01030)


Attached, for your information, is an advance copy of our final report on New Jersey’s compliance
with the reserve fund requirement for the increased Federal medical assistance percentage under the
American Recovery and Reinvestment Act. We will issue this report to the New Jersey Department
of Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for Medicare &
Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov or James P. Edert,
Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or through email at
James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01030.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
September 27, 2010

Report Number: A-02-09-01030

Ms. Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New Jersey’s Compliance With the Reserve or
Rainy Day Fund Requirement for the Increased Federal Medical Assistance Percentage Under
the American Recovery and Reinvestment Act. We will forward a copy of this report to the HHS
action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-09-01030 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure


HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




     REVIEW OF NEW JERSEY’S
COMPLIANCE WITH THE RESERVE OR
RAINY DAY FUND REQUIREMENT FOR
 THE INCREASED FEDERAL MEDICAL
  ASSISTANCE PERCENTAGE UNDER
   THE AMERICAN RECOVERY AND
        REINVESTMENT ACT



                       Daniel R. Levinson
                        Inspector General

                        September 2010
                         A-02-09-01030
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time.

Temporary Increases in Federal Medical Assistance Percentages

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act will provide
an estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAPs.

Section 5000 of the Recovery Act provides these increases to help avert cuts in health care
provider payment rates, benefits, or services and to prevent changes in income eligibility
requirements that would reduce the number of individuals eligible for Medicaid. However,
pursuant to Section 5001(f)(3) of the Recovery Act, a State is not eligible for the increased
FMAP if any amounts attributable (directly or indirectly) to such an increase are deposited or
credited into any reserve, or rainy day, fund.

New Jersey’s Temporary Increase in Federal Medical Assistance Percentage

In accordance with provisions in the Recovery Act, CMS made $857 million in additional
Medicaid funding available to New Jersey Health and Human Services (the State agency) for
Federal fiscal year (FY) 2009 (October 2008 through September 2009). 1 For the first two
quarters of FY 2009, CMS increased the State agency’s FMAP 8.78 percentage points, from
50 percent to 58.78 percent. For the last two quarters of FY 2009, CMS increased the State
agency’s FMAP an additional 2.81 percent, from 58.78 percent to 61.59 percent.

1
    After our audit period, CMS adjusted this amount to $853 million.


                                                           1
New Jersey’s Reserve or Rainy Day Fund

The New Jersey Department of the Treasury maintains a restricted reserve fund, the Surplus
Revenue Fund, also known as a rainy day fund. New Jersey sets aside money in this fund to
prepare for financial contingencies throughout the year.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with the Recovery Act
reserve or rainy day fund requirement for receiving the increased FMAP.

Scope

We reviewed the State agency’s use of the additional Medicaid funding for FY 2009. We did not
review the State agency’s overall internal control structure. We limited our review to obtaining
an understanding of the procedures the State agency used when allocating FMAP funding.

We performed our fieldwork at the Department of the Treasury’s and the State agency’s offices
in Trenton, New Jersey, in July 2010.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws and CMS guidance,

   •    interviewed State agency officials to gain an understanding of their procedures for
        distributing and accounting for Medicaid funds, and

   •    reviewed Department of the Treasury account information for its reserve or rainy day
        fund.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                 2
                                  RESULTS OF REVIEW

The State agency complied with the with the Recovery Act reserve or rainy day fund
requirement for receiving increased FMAP. Specifically, the State agency did not use additional
Medicaid funding to supplement any reserve or rainy day account. Therefore, we have no
recommendations.




                                               3
